kfl

Page 1 of2

Ogle v. Parris | WestlawNext
WESTLAW
Ogle v. Parris
United States Court of Appeals, Sixth Circuit. \ November 3, 2020 j Not Reported in Fed. Rptr, I 2020 WL 7213498 (Approx. 3 pages)

2020 WL 7213498
Only the Westlaw citation is currently available.
United States Court of Appeals, Sixth Circuit.

Teddy OGLE, Petitioner-Appellant,
v.

Mike PARRIS, Warden, Respondent-Appellee.
No. 20-5612
FILED November 03, 2020
Attorneys and Law Firms
Teddy Ogle, Wartburg, TN, pro se.
Richard Davison Douglas, Assistant Attorney General, Office of the Attorney General,
Nashville, TN, For Respondent-Appellee.
Before: LARSEN, Circuit Judge.
ORDER
*1 Teddy Ogle, a pro se Tennessee prisoner, appeals from the district court's judgment
dismissing his petition for a writ of habeas corpus filed under 28 U.S.C. § 2254. Ogle has
filed an application for a certificate of appealability (“COA").
In 2000, Ogle pleaded guilty to first-degree premeditated murder, felony murder, and
aggravated robbery in Tennessee state court. The trial court sentenced Ogle to life
imprisonment without the possibility of parole. Ogle did not pursue a direct appeal of his
convictions or sentence.
In November 2017, Ogle filed a pro se pleading that the trial court construed as a petition for
postconviction relief. That court denied the petition as untimely, and the Tennessee Court of
Criminal Appeals affirmed the trial court's decision. Oglev. State, Nos. E2018-01520-CCAR3-PC, E2018-01521-CCA-R3-PC, E2018-01522-CCA-R3-PC, 2019 WL 2355033, at *4
(Tenn. Crim. App. June 4, 2019). The Tennessee Supreme Court declined discretionary
review.
In November 2019, Ogle filed his § 2254 petition in the district court. The district court
dismissed the petition as untimely and denied a COA. Ogle v. Parris, No. 3:20-CV-39-PLRDCP, 2020 WL 2616513, at *4-5 (E.D. Tenn. May 22, 2020).
Under 28 U.S.C. § 2253(c)(1)(A), this court will grant a COA for an issue raised in a § 2254
petition only if the petitioner has made a substantial showing of the denial of a federal
constitutional right. 28 U.S.C. § 2253(c)(2). A petitioner satisfies this standard by
demonstrating that reasonable jurists "could disagree with the district court's resolution of his
constitutional claims or that jurists could conclude the issues presented are adequate to
deserve encouragement to proceed further." Buck v. Davis, 137 S. Ct. 759, 773 (2017)
(quoting Miller-El v. Cockrell, 537 U.S. 322, 327 (2003)); see also Slack v. McDaniel, 529
U.S. 473, 484 (2000). When a claim is denied on procedural grounds, the petitioner must
show “that jurists of reason would find it debatable whether the petition states a valid claim
of the denial of a constitutional right and that jurists of reason would find it debatable
whether the district court was correct in its procedural ruling." Slack, 529 U.S. at 484.
Reasonable jurists could not disagree with the district court's conclusion that Ogle's § 2254
petition was untimely. A one-year limitations period applies to federal habeas corpus
petitions filed by state prisoners. 28 U.S.C. § 2244(d)(1); Holbrook v. Curtin, 833 F.3d 612,
615 (6th Cir. 2016). This limitations period runs from the latest of four dates. 28 U.S.C. §
2244(d)(1)(A)-(D). The relevant date for Ogle's petition is the date on which his criminal
“judgment became final by the conclusion of direct review" of his convictions and sentence
“or the expiration of the time for seeking such review." See§ 2244(d)(1)(A); Holbrook, 833
F.3d at 615. This limitations period is tolled during the time in which "a properly filed
application for State postconviction or other collateral review with respect to the pertinent
judgment or claim is pending." See § 2244(d)(2).

fi PfJzA*&t.yc

*l

https://nextcorrectional.westlaw.eom/Document/114364bd0397dl 1 eba000a3 5ba47312ff/V...

(

3/25/2021

Page 2 of 2

Ogle v. Parris | WestlawNext
*2 Ogle has not made a substantial showing that his § 2254 petition was timely filed. It is
undisputed that Ogle's judgment of convictions and sentence was entered on May 1, 2000.
He had thirty days under Tennessee law to appeal that judgment. Tenn. R. App. 4(a). Since
he did not appeal, his convictions became “final" on May 31, 2000, and the § 2244(d)(1)
statute of limitations began to run on June 1, 2000. See Fed. R.'Civ. P. 6(a)(1). With no
applicable period of tolling, the statutory period for Ogle to timely file a § 2254 petition
expired on June 1, 2001. Although Ogle subsequently filed his state postconviction petition
in 2017, that petition did not toll the statute of limitations because the applicable one-year
period under § 2244(d)(1) already had expired by that time. See Parker v. Renico, 105 F.
App'x 16, 18 (6th Cir. 2004) (citing McClendon v. Sherman, 329 F.3d 490, 494 (6th Cir.
2003)). Nor did the state petition revive the limitations period. See Eberle v. Warden,
Mansfield Corr. Inst., 532 F. App'x 605, 609 (6th Cir. 2013) (citing t/roman v. Brigano, 346
F.3d 598, 602 (6th Cir. 2003)). Despite the expiration of this limitations period, Ogle argues
that the statute of limitations should run from the date an amended state rule, Tennessee
Rule of Criminal Procedure 36.1, went into effect. However, he cites to no authority
establishing that an amended state procedural rule would create a new limitations period.
Further, Ogle asserts, in a conclusory manner, that his counsel filed a state habeas petition
in 1997. Even if true, this action would have predated his convictions and would not affect
the limitations period. Ogle did not file his § 2254 petition until November 2019, over
eighteen years after the applicable limitations period ended.
Although he did not timely file his § 2254 petition, Ogle argues that the district court should
have equitably tolled the applicable limitations period. The § 2244(d)(1) statute of limitations
is not a jurisdictional bar and, therefore, is subject to equitable tolling where a habeas
petitioner “shows '(1) that he has been pursuing his rights diligently, and (2) that some
extraordinary circumstance stood in his way' and prevented timely filing.” Holland v. Florida,
560 U.S. 631,649 (2010) (quoting Pace v. DiGuglielmo, 544 U.S. 408,418 (2005)). This
court applies equitable tolling sparingly, and Ogle bears the burden of proving that he is
entitled to it. See Robertson v. Simpson, 624 F.3d 781,784 (6th Cir. 2010).
Ogle has not made a substantial showing that he met this burden. In a conclusory manner,
he asserts that his affidavit of arrest contained false statements, but he does not provide any
basis for this assertion. Nor does he explain when he discovered these allegedly false
statements or how he was diligent in pursuing his rights. Further, Ogle does not identify any
extraordinary circumstance which prevented him from pursuing his claims in a timely
manner. To the extent that he relies on his pro se status or lack of knowledge of the law,
these factors are insufficient to constitute an extraordinary circumstance and to excuse an
untimely filing. See Keeling v. Warden, Lebanon Corr. Inst., 673 F.3d 452, 464 (6th Cir.
2012).
Accordingly, Ogle's COA application is DENIED.
All Citations
Not Reported in Fed. Rptr., 2020 WL 7213498

End of

(

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

Document

WestlawNext. © 2021 Thomson Reuters

THOMSON eeurens
Thomson Reuters fimot providing legal advice

https://nextcorrectionaj.westlaw.com/Documen1/n4364bd0397dl 1 eba000a35ba.47312ff/V... 3/25/2021

Page 2 of 5

, Ogle v. Parris | WestlawNext

III. The trial court erred in refusing to recuse itself.
IV. Petitioner's guilty plea was not knowing and voluntary.
V. Trial counsel was ineffective in failing to call defense witnesses.
VI. The trial court erred by construing Petitioner’s pleading as a petition for post-conviction
relief and dismissing the petition without providing Petitioner an opportunity to amend.
VII. The appellate court and trial court erred in their construction of the petition.
*2 VIII. An illegal arrest and extradition led to an illegal sentence.
IX. Petitioner's guilty plea was illegal because it was based on erroneous information and
an illegal statement.
X. The trial court erred in failing to apply mitigating factors in imposing Petitioner's
sentence.
XI. Trial counsel rendered ineffective assistance in failing to utilize potential mitigation
evidence from a mitigation specialist.
XII. Petitioner was denied a fair and impartial sentencing proceeding.
[Doc. 1], The Court ordered Respondent to respond to the petition, and Respondent did so
by filing its answer on or about April 20, 2020 [Doc. 11], Petitioner did not file a reply, and the
time to do so has passed [See Doc. 7]. This matter is ripe for review.
II. DISCUSSION
A. Timeliness
1. Standard
The instant petition for writ of habeas corpus is subject to the statute of limitations of the
Anti-Terrorism and Effective Death Penalty Act of 1996 (“AEDPA"). Lindh v. Murphy, 521
U.S. 320, 337 (1997). Whether the instant petition is timely turns on the statute's limitation
period, which provides:
(d)(1) A 1-year period of limitation shall apply to an application for a writ of habeas corpus
by a person in custody pursuant to the judgment of a State court. The limitation period
shall run from the latest of(A) the date on which the judgment became final by the conclusion of direct review or
the expiration of the time for seeking such review;
(B) the date on which the impediment to filing an application created by State action in
violation of the Constitution or the laws of the United States is removed, if the applicant
was prevented from filing by such State action;
(C) the date on which the constitutional right asserted was initially recognized by the
Supreme Court, if the right has been newly recognized by the Supreme Court and made
retroactively applicable to cases on collateral review; or
(D) the date on which the factual predicate of the claim or claims presented could have
been discovered through the exercise of due diligence.
28 U.S. C. § 2244(d)(1). The federal limitations period is tolled while a “properly filed
application for State post-conviction or other collateral review” is pending. See 28 U.S.C. §
2244(d)(2). In "rare and exceptional circumstances,” the limitations period may be equitably
tolled. Felder v. Johnson, 204 F.3d 168,170-71 (5th Cir. 2000) (citations omitted).
2. Analysis
Petitioner's convictions became “final” on May 31,2000, when the time expired for him to
seek a direct appeal from his May 1,2000, guilty plea [Doc. 8-1 p. 23-26], See Tenn. R. App.
4(a) (requiring notice of appeal to be filed within 30 days after entry of judgment appealed
from); State v. Green, 106 S.W.3d 646, 650 (Tenn. 2003) (holding judgment of conviction
entered upon guilty plea becomes final thirty days after acceptance of plea and imposition of
sentence). Therefore, the statute of limitations began running the following day, June 1,
2000, and expired on June 1, 2001.1 Petitioner did not file his federal habeas petition until
on or about November 15, 2019, over eighteen years after the expiration of the federal
statute of limitations. Therefore, the petition is untimely under 28 U.S.C. § 2244(d)(1)(A).

https://nextcorrectional.westlaw.com/Document/I7747bc009e9fl 1 eab2c3c7d85ec85a54/Vi... 3/25/2021

Ogle v. Parris | WestlawNext

Page 3 of 5

*3 Petitioner argues that the federal statute of limitations commenced on July 1,2016, when
Rule 36.1 of the Tennessee Rules of Criminal Procedure was amended [Doc. 1 p. 27-28],
However, amendment of a State rule of procedure does not satisfy any of the criteria in 28
U.S.C. § 2244(d)(1)(8)-(D), and therefore, revision of the rule did not reset the statute of
limitations clock. Additionally, because Petitioner's State-court pleading was not filed until
after the statute of limitations had expired, it does not serve to toll the limitations period. See
Vroman v. Brigano, 346 F.3d 598, 602 (6th Cir. 2003) (holding that while a properly filed
application for state post-conviction or other collateral relief may toll the statute of limitations,
it "does not... 'revive' the limitations period (i.e., restart the clock at zero); it can only serve
to pause a clock that has not yet fully run").
Accordingly, the instant petition was not timely filed, and the Court can consider it only if
Petitioner establishes an entitlement to equitable tolling of the limitations period. See Allen v.
Yukins, 366 F.3d 396, 401 (6th Cir. 2004) (finding it is the petitioner's burden to demonstrate
equitable tolling applies). To establish an entitlement to equitable tolling, a petitioner must
demonstrate “(1) that he has been pursuing his rights diligently, and (2) that some
extraordinary circumstance stood in his way" to prevent timely filing. Lawrence v. Florida,
549 U.S. 327, 336 (2007) (citing Pace V. DiGuglielmo, 544 U.S. 408, 418 (2005)). It is an
exception that should be granted "sparingly.” Keeling v. Warden, 673 F.3d 452, 462 (6th Cir.
2012).
Petitioner asserts that he is entitled to equitable tolling of the limitations period, as his
attorney filed a habeas petition in State court in 1997 that was never heard by the trial court
[Doc. 1 p. 28], However, he does not explain why he then waited nearly twenty years before
filing anything else in State court. Therefore, he has not shown a diligent pursuit of his rights.
Moreover, he cannot show that any extraordinary circumstance stood in his way and
prevented a timely filing of the federal habeas petition. Petitioner accuses the State of
concealing his illegal seizure, alleging that the affidavit of arrest contained false and reckless
statements [Id. at 30-31], However, he does not identify these allegedly false statements, nor
does he explain when he learned about the statements. Additionally, his claim that the State
concealed evidence is a conclusory allegation that fails to constitute an extraordinary
circumstance that prevented the timely filing of his habeas petition. See, e.g.. O'Malley v
United States, 285 F,2d 733, 735 (6th Cir. 1961) (“Conclusions, not substantiated by
allegations of fact with some probability of verity, are not sufficient to warrant a hearing” or
relief). Therefore, the Court finds that equitable tolling is not appropriate in this case, and the
instant petition will be dismissed as untimely.
B. State-Law Issues
The Court additionally finds that the claims Petitioner raises in Claims l-lll and VI-VII are
based on the State court's application of State law. The Supreme Court has "stated many
times that federal habeas corpus relief does not lie for errors of state law." Estelle v.
McGuire, 502 U.S. 62, 67-68 (1991) (internal quotation omitted). Therefore, Petitioner's
claims regarding the construction of his petition and the procedures used by the trial court to
adjudicate the petition cannot form the basis of federal habeas relief. Accordingly, Claims l-lll
and VI-VII are otherwise properly dismissed as non-cognizable.
C. Procedural Default
The Court also notes that the doctrine of procedural default limits federal habeas review in
this case. See O'Sullivan v. Boerckel, 526 U.S. 838, 848 (1999) (holding prisoner's
procedural default forfeits his federal habeas claim). A procedural default exists in two
circumstances: (1) where the petitioner fails to exhaust all of his available State remedies,
and the State court to which he would be required to litigate the matter would now find the
claims procedurally barred 2, and (2) where a State court clearly and expressly bases its
dismissal of a claim on a State procedural rule, and that rule provides an independent and
adequate basis for the dismissal. See, e.g., Coleman v. Thompson, 501 U.S. 722, 729, 73132, 735 n.1 (1991). A procedural default may be circumvented, allowing federal habeas
review of the claim, only where the prisoner can show cause and actual prejudice for the
default, or that a failure to address the merits of the claim would result in a fundamental
miscarriage of justice. Coleman, 501 U.S. at 750; see also Wainwright v. Sykes, 433 U.S.
72, 87, 90-91 (1977).
*4 “Cause” is established where a petitioner can show some objective external factor
impeded defense counsel's ability to comply with the State's procedural rules, or that his trial
counsel rendered ineffective assistance. See id. at 753. The prejudice demonstrated to
overcome the default must be actual, not merely a possibility of prejudice. See Maupin v.

https://nextcorrectional.westlaw.com/Document/I7747bc009e9flIeab2c3c7d85ec85a54/Vi... 3/25/2021.

Ogle v. Parris | WestlawNext

Page 4 of 5

Smith, 785 F.2d 135,139 (6th Cir. 1986) (citations omitted); see also United States v. Frady,
456 U.S. 152,170 (1982) (holding prejudice showing requires petitioner to bear “the burden
of showing, not merely that the errors [in the proceeding] created a possibility of prejudice,
but that they worked to his actual and substantial disadvantage, infecting his entire
[proceeding] with error of constitutional dimensions”) (emphasis in original). A fundamental
miscarriage of justice of occurs “where a constitutional violation has probably resulted in the
conviction of one who is actually innocent.' Murray v. Carrier, 477 U.S. 478, 496 (1986).
Therefore, as stated above, failure to comply with a State procedural rule will foreclose
habeas review of a claim if the decision of the State court rested on the State-law rule, and it
is independent of the federal question and adequate to support the judgment. See, e.g.,
Walker v. Martin, 562 U.S. 307, 315 (2011). To determine whether a habeas claim is
precluded by the failure to observe a State procedural rule, a reviewing court must
determine: (1) whether an applicable rule exists with which the petitioner failed to comply; (2)
whether the State courts actually enforced the rule; (3) whether the rule is an adequate and
independent State rule on which the State can rely to foreclose review of the federal claim;
and (4) whether cause exists for the petitioner's failure to follow the rule, and that he was
prejudiced by the alleged error. Maupin v. Smith, 785 F.2d 135, 138 (6th Cir. 1986).
Here, Tennessee law requires that a petitioner must file a petition for post-conviction relief
within one year “of the date on which the judgment became final, or consideration of the
petition shall be barred.” Tenn. Code Ann. § 40-30-102(a). Petitioner's amended judgment
became final on July 10, 2000, over seventeen years before he filed his petition for post­
conviction relief [See Doc. 8-1 p. 26], The State court enforced the procedural sanction in
this case, as it refused to reach the merits of the petition due to the time bar. Ogle, 2019 WL
2355033, at *3. Federal courts have concluded that the one-year statute of limitations period
constitutes an independent and adequate State-law ground for purposes of procedural
default. See Hutchison v. Bell, 303 F.3d 720, 738-39 (6th Cir. 2002) (finding “Tennessee
courts consistently enforce” the one-year limitations period absent "court-recognized
procedure for tolling" upon "specific due process grounds’’); Moore v. Phillips, No. 1:14-cv1162, 2020 WL 475831, at *13 (W.D. Tenn. Jan. 29, 2020) (finding petition time barred under
State rule procedurally defaulted on habeas review). Petitioner makes no argument that
cause and prejudice exist to excuse the default. Accordingly, the Court finds Petitioner's
federal claims otherwise procedurally defaulted.
III. CERTIFICATE OF APPEALABILITY
Pursuant to Rule 11 (a) of the Rules Governing § 2254 Cases, this Court must issue or deny
a certificate of appealability f'COA”) upon the entry of a final order adverse to the petitioner.
Petitioner must obtain a COA before appealing this Court's decision denying federal habeas
relief. See 28 U.S.C. § 2253(c)(1). Because the instant petition is rejected on procedural
grounds, Petitioner must demonstrate “that jurists of reason would find it debatable whether
the petition states a valid claim of the denial of a constitutional right and that jurists of reason
would find it debatable whether the district court was correct in its procedural ruling" in order
for a COA to issue. Slack v. McDaniel, 529 U.S. 473, 484 (2000). Applying this standard, the
Court concludes that a COA should be denied.
IV. CONCLUSION
*5 For the reasons set forth above, the instant petition will be DENIED, and this action will be
DISMISSED with prejudice. A certificate of appealability will be DENIED.
Further, the Court will CERTIFY that any appeal from this action would not be taken in good
faith and would be totally frivolous. Fed. R. App. P. 24.
AN APPROPRIATE JUDGMENT ORDER WILL ENTER.
All Citations
Slip Copy, 2020 WL 2616513
Footnotes
1

The Court notes that an amended judgment was entered in Petitioner's case
on July 10, 2000 [Doc. 8-1 p. 26], Because this did not increase Petitioner's
sentence, however, the Court determines that it is not a new judgment that
restarts the clock. See, e.g., Freeman v. Wainwright, 2020 WL 2394242, at *3
(holding "final judgment" in criminal case is the sentence, and modification
without resentencing is not a “final judgment” that restarts § 2244(d)’s clock).

https://nextcorrectional.westlaw.com/Document/I7747bc009e9fl 1 eab2c3c7d85ec85a54/Vi... 3/25/2021

1

,~r4

Ogle v. Parris | WestlawNext

Page 5 of 5

However, even if this later date were used to restart the statute of limitations
clock, the federal limitations period still would have expired in July 2001.
2

To exhaust a claim in state court, a petitioner must have fairly presented the
claim through “one complete round of the State's established appellate review
process.” O'Sullivan, 526 U.S. at 845. In Tennessee, presentation to the TCCA
is sufficient for § 2254(b) exhaustion. See Adams v. Holland, 330 F.3d 398,
402 (6th Cir. 2003).

End of

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

Document

WestlawNext. ©2021 Thomson Reuters

Thomson Reuters is:fK>fproviding legal advice

\

https://nextcorrectional.westlaw.com/Document/I7747bc009e9fl Ieab2c3c7d85ec85a54/Vi... 3/25/2021

